G!)         SIGAR I Office of the Special Inspector General
                    for Afghanistan Reconstruction
                                                                                                  John F. Sopko
                                                                                      Special Inspector General




                                                                                            May 20,2013




 The Honorable Dr. Omar Zakhilwal
 Minister of Finance
 Islamic Republic of Afghanistan

 Dear Minister Zakhilwal:

 Thank you for your letter dated May 16, 2013, regarding SIGAR's recent audit report on taxation of
 U.S. contractors supporting U.S. government efforts in Afghanistan. 1 As you noted in your letter, the
 core contention of our report is that "the Afghanistan Government has inappropriately levied
 millions of dollars in taxes upon U.S. contractors doing business in Afghanistan." Our auditors found
 strong support for this conclusion. Nevertheless, I would like to respond to the specific concerns
 raised in your letter.

 First, and most important, you contend that my office "neglected to consult with or seek meaningful
 input from the Afghan Ministry of Finance." Evidently you have been misinformed on this point. My
 audit team initially met with your office in July 2012. Specifically, the team interviewed two of your
 senior officials- the Director General of the Treasury and the Director General of Revenue and
 Customs- as well as some of their top personnel, including the Director of the Large Taxpayer Office
 Legal Department and the Technical Director of Customs. These officials were identified by the U.S.
 Embassy in Kabul as the individuals who were best prepared to answer our questions and provide
 the information we needed. My team met again with your senior revenue officials in October 2012.

 Over the course of four meetings with your senior officials, our auditors gathered information about
 how the Ministry of Finance levies and processes business taxes and about the ministry's
 perspective on the bilateral agreements between the U.S. and Afghan governments regarding
 taxation of contractors. These candid discussions were an important component of our audit work,
 and I appreciate the cooperation your officials demonstrated in meeting with my auditors.

 Unfortunately, your senior officials did not demonstrate the same level of cooperation in responding
 to our repeated requests for data. For example, we requested on multiple occasions a list of the
 foreign contractors on whom taxes had been levied and a list of those that have paid taxes.
 Although your officials initially agreed to provide this information and we followed up with them on
 several occasions to remind them of our outstanding request, your agency never provided the
 requested information.

 Second, you charge SIGAR with "uncritically accepting the testimony of. . . noncompliant
 contractors." On the contrary, while SIGAR did gather information from contractors (in part because
 we were unable to obtain the data we requested directly from your office), we did not rely


 1
  SIGAR 13-8, Taxes: Afghan Government Has Levied Nearly a Billion Dollars in Business Taxes on Contractors
 Supporting U.S. Government Efforts in Afghanistan, May 2013.

 1550 Crystal Drive, 9th Floor   Mail: 2530 Crystal Drive         Tel: 703 545 6000   www.sigar.mil
 Arlington, Virginia 22202       Arlington, Virginia 22202-3940
                                                                                                     Page 2




exclusively on this information to formulate our findings. For example, we collected and analyzed
supporting documentation from the contractors (including documents they had received from the
Afghan Ministry of Finance} and, wherever possible, verified this information with an independent,
third-party source, such as the cognizant contracting officer.

Third, your letter states that two of the bilateral agreements discussed in the report - the 2002
Military Technical Agreement with ISAF and the 2003 Status of Forces Agreement- are "legally
suspect, poorly drafted, and ill-suited to the complex reality of 2013." Regardless of your opinion of
these agreements, they were agreed to by the Government of Afghanista n and are in effect today.
Therefore, these bilateral agreements constitute sound criteria for assessing the legitimacy of levied
taxes. As we reported, we identified at least $93 million in taxes that had been assessed by the
Afghan government on U.S. contractors in contravention of these and other standing bilateral
agreements. Based on our analysis, we believe that much more of the total $921 million in taxes we
identified is likely illegitimate.

In summary, SIGAR conducted this audit under generally accepted government auditing standards,
which require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. SIGAR
has met or exceeded these standards and, therefore, our findings, conclusions, and
recommendations are valid and sound. We will continue to monitor this situation to ensure that all
U.S. agencies take the appropriate corrective action and ensure that U.S. taxpayer dollars are
effectively and efficiently spent.

Finally, I strongly disagree with your contention that our audit has "unwittingly encouraged legal
impunity and undermined the ability of the Government of Afghanistan to become self-susta ining."
On the contrary, SIGAR's audit exposed a serious weakness that must be corrected if the
Government of Afghanistan is to achieve self-sustainability. More specifically, we believe the
Government of Afghanistan will only become self-sustaining when it is able to attract private capital
investment, rather than depending primarily on foreign assistance. This is unlikely to occur until the
government administers its tax laws in a manner that is fair, transparent, and predictable.

Thank you for your expression of support for our mission, and I wish you well.




                                                                 John F. Sag o
                                                                 Special ln{pector General
                                                                   for Afghanistan Reconstruction




1550 Crystal Drive, 9th Floor   Mail: 2530 Crystal Drive         Tel: 703 545 6000   www.sigar.mil
Arlington, Virginia 22202       Arlington, Virginia 22202-3940
    !‫ (ﺳﻼﻣﯽ (ﻓﻐﺎﻧﺴﺘﺎ‬-.‫ﻮ‬0‫ﺟﻤ‬                                                              ‫"ﺖ‬#‫ﻮ‬%‫ﺳﻼﻣﯽ ﺟﻤ‬, -‫ﻓﻐﺎﻧﺴﺘﺎ‬,4
           !"‫*)('& ﻣﺎﻟ‬                                                                       !"#$% ‫!ﻣﺎﻟ"ﻲ‬


                                     Islamic Republic of Afghanistan
                                           Ministry of Finance


                                                                                                               May 16 2013

John F. Sopko
Special Inspector General for Afghan Reconstruction (SIGAR)
2530 Crystal Drive,
Arlington, VA 22202
United States of America

Dear Mr. Sopko:

I would like to take this opportunity to comment on the findings in SIGAR Audit 13-8
regarding “Afghan Business Taxes on U.S. Contracts,” the core contention of which is that
the Afghan Government has inappropriately levied millions of dollars in taxes upon U.S.
contractors doing business in Afghanistan. This report is deeply flawed in several
respects. Most important of these, your office neglected to consult with or seek meaningful
input from the Afghan Ministry of Finance, which is the responsible authority for collection
of taxes in Afghanistan. This oversight renders the conclusions contained in the report
suspect.

While the report indicates that its authors sought the cooperation of the Ministry of Finance,
my office has never received any request for information from SIGAR, nor have any of your
personnel ever visited us to seek our input. It appears from review of the audit report that
SIGAR relied heavily upon information gathered from the taxpayers themselves, some of
whom may have been subject to fines or other sanctions for violations of Afghan law. It
would be naive for the authors of the report to rely upon the testimony of self-interested
parties without also obtaining the views of the public authorities. Such an oversight would
open the door to manipulation of the audit findings, as has happened in this case.

 Afghanistan, with the support of its international partners, has worked hard to build a
revenue service capable of meeting Afghanistan’s future revenue needs. We are very
proud of the fact that our revenue team is challenging major international corporations
operating in Afghanistan to abide by Afghan law. I was distressed to note that the audit
report overlooked the persistent problem of some U.S. government contractors operating
with impunity inside Afghanistan. Some of the tax assessments cited in the audit report in
fact relate to instances where contractors failed to file tax returns at all, failed to report
income, failed to claim exemptions that may have been due to them, or were found to have
abused for private gain the tax or customs exemptions afforded to them. By uncritically
accepting the testimony of some of these noncompliant contractors, SIGAR has unwittingly
encouraged legal impunity and undermined the ability of the Government of Afghanistan to
become self-sustaining.

In addition, the report has overlooked the single most important factor affecting the
treatment of tax-exempt income from U.S. sources under Afghan law, which is the
inadequacy of the underlying international agreements to provide meaningful guidance.
The Government of Afghanistan is absolutely committed to honoring its international
agreements; it is equally committed to defending its rights under those agreements as well
as Afghanistan’s national sovereignty. The agreements primarily at issue, the 2002 Military

             www.mof.gov.af :‫ﺘﻲ‬#‫* ﺻﻔ' &ﻧﺘﺮﻧ‬0093 (0) 202100387 :!‫ﻔﻮ‬$‫ﻠ‬$‫ ﻧﻤﺮ' ﺗ‬+!‫ﻓﻐﺎﻧﺴﺘﺎ‬1 ‫ ﮐﺎ ﺑﻞ‬%&'( )‫ ﭘﺸﺘﻮﻧﺴﺘﺎ‬:012'
        Address: Pushtonistan Watt, Kabul, Afghanistan. Phone: 0093 (0) 202100387, Website: www.mof.gov.af
                                                                                                                             !
Technical Agreement with ISAF (MTA) and the 2003 Status of Forces Agreement with U.S.
military (SOFA), are legally suspect, poorly drafted, and ill-suited to the complex reality of
2013. They were battlefield documents, intended to provide limited guidance at a time
when the capacities of the Afghan Government were much more limited. We have
nonetheless done our best to implement the MTA and SOFA in a reasonable manner, while
also urging our international partners to work with us to replace them with agreements that
meet present needs.

Despite our disappointment and dissatisfaction with the content of this audit report, we
continue to support and encourage your mission to promote economy and efficiency of
U.S.-funded reconstruction programs in Afghanistan and to detect and deter fraud, waste,
and abuse. We only hope that in future you will engage more fully with the Government of
Afghanistan so that you have the full facts at your disposal, and can make accurate
assessments of these important issues.


                                          Sincerely




                                    Dr. Omar Zakhilwal
                                    Minister of Finance
                              Islamic Republic of Afghanistan




                                                                                            2
